                                                         Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Audit Announcement—Federal                     Date:    April 19, 2005
           Aviation Administration’s Telecommunication
           Infrastructure Program
  From:                                                              Reply to
           David A. Dobbs                                            Attn of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:
           Ramesh Punwani
           Assistant Administrator
            for Financial Services/CFO

           The Office of the Inspector General plans to conduct an audit of the Federal
           Aviation Administration’s (FAA) Telecommunication Infrastructure (FTI)
           program. FTI will be the primary means through which the FAA will acquire
           telecommunication services through 2017. FTI is key to FAA’s efforts to
           transition from multiple telecommunication networks to a single network, thereby
           reducing operating costs. FAA re-baselined the FTI program in December 2004
           and increased the program costs from $1.9 billion to $2.4 billion, the bulk of
           which ($2.1 billion) will be funded from the Operations account.

           Even though FAA re-baselined the program, there are a number of issues that
           could impact cost and schedule. For example, FAA has increased the number of
           sites scheduled to receive FTI from 1,374 to 4,463, and some sites are
           experiencing delays in implementing the service. Delays to the implementation
           schedule could translate into increased cost and reduced savings due to the
           prolonged sustainment of legacy networks. In this regard, a key issue is FAA’s
           progress in transitioning from the Leased Interfacility National Airspace System
           Communications System (LINCS) to FTI operations.

           Our audit objective is to evaluate FAA’s efforts to transition to FTI within budget
           and on schedule. Specifically, we will (1) determine whether FAA’s plans to
           integrate separate FAA owned or leased telecommunications networks into a
           single network can be delivered within revised cost and schedule baselines, and
           (2) identify the key program risks that could affect FAA’s ability to meet cost and
           schedule projections.
                                                                                   2


During the audit, we will visit FAA Headquarters, Air Traffic Control facilities,
and contractor facilities. We will also contact the Professional Airways Systems
Specialists and other Government and contractor representatives as deemed
necessary.

We plan to start the audit during the week of April 25, 2005. Kevin Dorsey is the
Program Director for this audit, and he will contact your audit liaison to arrange an
entrance conference. If you have any questions or require additional information
concerning this audit, please call him at (202) 366-1518.

                                         #

cc:    FAA Deputy Administrator, ADA-1
       FAA Chief of Staff, AOA-2
       Anthony Williams, ABU-100
       Martin Gertel, M-1
